Highlights
Table of Contents




                    Revenue
                    Protection
                    Rules
Findings
Recommendations




                    Management
                    Advisory Report
                    Report Number
                    MS-MA-15-001

                    October 3, 2014
Appendices




                                      Print
Highlights
Table of Contents




                    Highlights                      Background                                                          internal controls to ensure the accuracy of financial
                                                                                                                        statements, the Field Remediation group identifies and
                                                    Revenue protection has become increasingly critical to posts’
                                                                                                                        mitigates Sarbanes-Oxley weaknesses, and the Postal
                                                    survival as mail volumes decline worldwide. The Universal
                          The Postal Service does                                                                       Inspection Service Revenue, Product, and Global Security
                                                    Postal Union estimated that posts lose 5 to 10 percent of
                                                                                                                        group identifies systemic risk from weak revenue
                        not have a comprehensive,   postage revenue because of fraud, poor mail acceptance,
                                                                                                                        protection controls.
Findings




                                                    sampling and billing processes, or unreliable revenue
                            strategic approach to   collection technology.
                                                                                                                        The Postal Service lacks a permanent group dedicated to
                             revenue protection.                                                                        coordinating and overseeing revenue protection activities.
                                                    Revenue protection rules are the processes, procedures,
                                                                                                                        The existing Revenue Assurance group consists of employees
                            Revenue protection is   roles, responsibilities, and requirements related to assuring and
                                                                                                                        on temporary assignment who have other responsibilities
                                                    protecting U.S. Postal Service revenue. While all Postal Service
                                                                                                                        in addition to revenue assurance, and the group’s future is
                       provided by various groups   employees are responsible for preventing revenue loss, various
                                                                                                                        uncertain. Industry best practices suggest that agency-wide
                                                    groups have revenue protection responsibilities, including
Recommendations




                             whose missions and                                                                         coordination is critical in reducing unnecessary overlap of key
                                                    Financial Testing and Compliance; Field Remediation; the
                                                                                                                        revenue protection activities. Identifying a permanent group to
                             focuses are limited.   newly established Revenue Assurance group; and the
                                                                                                                        oversee revenue protection activities would mitigate gaps in
                                                    U.S. Postal Inspection Service’s Revenue, Product, and
                                                                                                                        and duplication of revenue protection activities, leverage
                                                    Global Security group.
                                                                                                                        Postal Service resources and increase the effectiveness of
                                                                                                                        revenue protection efforts.
                                                    Our objective was to evaluate Postal Service rules related to
                                                    revenue protection and to determine whether opportunities exist
                                                                                                                        The Postal Service also lacks critical information on the amount
                                                    for improvement.                                                    and sources of shortpaid postage. Prior U.S. Postal Service
                                                                                                                        Office of Inspector General audit reports identified
                                                    What The OIG Found                                                  Postal Service internal controls were inadequate to identify
Appendices




                                                    The Postal Service does not have a comprehensive, strategic         shortpaid and unpaid postage. The Postal Service continues to
                                                    approach to revenue protection. Revenue protection is provided      address revenue protection through technological initiatives;
                                                    by various groups whose missions and focuses are limited. For       however, revenue leakage will continue to occur until automated
                                                    example, the Financial Testing and Compliance group tests           verification procedures replace current manual processes.

                    Revenue Protection Rules
                    Report Number MS-MA-15-001
                                                                                                                                               Print                                      1
Highlights
Table of Contents




                                                 Postal Service officials explained that the process for identifying   This lack of data impedes the Postal Service from developing
                                                 shortpaid is difficult and cost-prohibitive and that no single        effective revenue protection rules and measuring program
                                                 group is responsible for this effort.                                 effectiveness. Applying the Universal Postal Union’s 5 percent
                                                                                                                       estimate to business and retail mail that was not verified for
                                                 The first step in mitigating revenue leakage, including shortpaid     sufficient postage through automation in FY 2013, we estimate
                                                 postage, is to identify its source and magnitude. Currently,          that $1.2 billion of revenue was at risk of revenue leakage.
Findings




                                                 the Postal Service uses data provided by Statistical Programs
                                                 from Origin Destination Information System-Revenue, Pieces            What The OIG Recommended
                                                 and Weight tests to project shortpaid postage of $432 million
                                                                                                                       We recommended the Postal Service develop a strategy to
                                                 in fiscal year (FY) 2013. However, the data are not considered
                                                                                                                       coordinate revenue protection efforts and explore cost effective
                                                 statistically valid for shortpaid estimates and are only used to
                                                                                                                       methods for estimating shortpaid revenue for business mail.
                                                 gauge potential revenue leakage. Further, this estimate does
                                                 not include commercial mail.
Recommendations
Appendices




                    Revenue Protection Rules
                    Report Number MS-MA-15-001
                                                                                                                                              Print                                     2
Highlights
                    Transmittal Letter


                                                 October 3, 2014
Table of Contents




                                                 MEMORANDUM FOR:	 MAURA A. McNERNEY
                                                 				VICE PRESIDENT, CONTROLLER

                                                                                E-Signed by Janet Sorensen
                                                                           VERIFY authenticity with eSign Desktop



                                                 				

                                                 FROM: 			 Janet M. Sorensen
                                                 				Deputy Assistant Inspector General
                                                 				       for Revenue and Resources
Findings




                                                 SUBJECT: 			              Management Advisory Report – Revenue Protection
                                                 				                      Rules (Report Number MS-MA-15-001)

                                                 This management advisory report presents the results of our review of the
                                                 U.S. Postal Service Revenue Protection Rules (Project Number 14RG014MS000).

                                                 We appreciate the cooperation and courtesies provided by your staff. If you have any
Recommendations




                                                 questions or need additional information, please contact Joseph E. Wolski, director,
                                                 Sales and Marketing, or me at 703-248-2100.

                                                 Attachment

                                                 cc:	   Corporate Audit and Response Management
Appendices




                    Revenue Protection Rules
                    Report Number MS-MA-15-001
                                                                                                                    Print               3
Highlights
                    Table of Contents            Cover.............................................................................................................1
                                                 Highlights.......................................................................................................1
                                                  Background.................................................................................................1
                                                  What The OIG Found..................................................................................1
                                                  What The OIG Recommended...................................................................2
                                                 Transmittal Letter...........................................................................................3
                                                 Findings.........................................................................................................5
Table of Contents




                                                  Introduction.................................................................................................5
                                                  Conclusion..................................................................................................6
                                                  Revenue Protection Coordination...............................................................6
                                                  Shortpaid Postage Identification.................................................................8
                                                 Recommendations......................................................................................10
                                                  Management’s Comments........................................................................10
                                                  Evaluation of Management’s Comments..................................................10
                                                 Appendices..................................................................................................12
                                                  Appendix A: Additional Information...........................................................13
Findings




                                                    Background ...........................................................................................13
                                                    Objective, Scope, and Methodology.......................................................14
                                                    Prior Audit Coverage..............................................................................15
                                                  Appendix B: Management’s Comments....................................................16
                                                 Contact Information.....................................................................................18
Recommendations
Appendices




                    Revenue Protection Rules
                    Report Number MS-MA-15-001
                                                                                                                                            Print                      4
Highlights
                    Findings                           Introduction
                                                       This report presents the results of our self-initiated review of the U.S. Postal Service’s revenue protection rules
                                                       (Project Number 14RG014MS000). Revenue protection rules are the processes, procedures, roles, responsibilities, and
                                                       requirements related to assuring and protecting Postal Service revenue. Our objective was to evaluate Postal Service rules
                                                       related to revenue protection and to determine whether opportunities exist for improvement. See Appendix A for additional
                      Revenue protection rules are     information about this review.

                        the processes, procedures,     Revenue protection has become increasingly critical to posts’ survival as mail volume declines worldwide. The Universal Postal
Table of Contents




                                                       Union (UPU) estimated that posts lose 5 to 10 percent of postage revenue as a result of fraud, poor mail acceptance, sampling
                        roles, responsibilities, and
                                                       and billing processes, or unreliable revenue collection technology.1 The Postal Service directs most of its revenue protection efforts
                           requirements related to                                  , which accounts for about              of total revenue. For example, of $67 billion in total revenue
                                                       generated by the Postal Service during fiscal year (FY) 2013,                           was              and
                          assuring and protecting      was              .
                           Postal Service revenue.
                                                       Recent and planned efforts to expand the use of technology through automation will increase opportunities to improve revenue
                      Our objective was to evaluate    assurance capabilities. Seamless Acceptance and the Passive Adaptive Scanning System (PASS) 2 will improve revenue
                                                       protection by identifying and notifying delivery unit employees of packages with potential shortpaid postage. Currently, the
                        Postal Service rules related   Postal Service uses data provided by Statistical Programs from Origin Destination Information System-Revenue, Pieces and
                                                       Weight (ODIS-RPW) tests to project shortpaid postage, which identified $432 million in FY 2013.3 However, the data are not
                            to revenue protection
                                                       considered statistically valid for shortpaid estimates and are only used to gauge potential revenue leakage. Further, this estimate
Findings




                                and to determine       does not include commercial mail.

                            whether opportunities      The Postal Service must comply with the Sarbanes-Oxley Act of 2002 (SOX),4 which includes an annual assessment of financial
                                                       internal controls. Although SOX controls concentrate on financial statement accuracy, they also provide for revenue protection.
                           exist for improvement.
                                                       The controller’s SOX Program Management Office and Postal Service process owners5 are responsible for identifying revenue
                                                       protection control gaps.
Recommendations




                                                       While all Postal Service employees are responsible for preventing revenue leakage, the Postal Service has several groups and
                                                       program offices with specific revenue protection responsibilities. These groups include Financial Testing and Compliance; Field
                                                       Remediation; Revenue Assurance; and the U.S. Postal Inspection Service’s Revenue, Product, and Global Security group, which
                                                       reports to the chief postal inspector.




                                                       1	   Union Postale, Revenue Protection Takes Center Stage, March 2011, Berne, Switzerland.
                                                       2	   Seamless acceptance is the automation of mail verification for mailings from business mailers who apply unique (full service) Intelligent Mail barcodes (IMbs) on
Appendices




                                                            mailpieces, trays, sacks, pallets, and other containers. PASS is used in delivery units and offers a control point to capture package data and address the issue of
                                                            shortpaid and unpaid PC Postage in the retail setting.
                                                       3	   The purpose of ODIS-RPW is to collect data on mail revenue, pieces, and weight for planning and reporting purposes.
                                                       4	   Sarbanes-Oxley Public Company Accounting Reform and Investor Protection Act of 2002, as it is known in the U.S. Senate. (It is also known in the U.S. House of
                                                            Representatives as the Corporate and Criminal Fraud Accountability Act of 2002) Pub. L. No. 107-204, 116 Stat. 745 (July 30, 2002), codified at 15 U.S.C. § 7262.
                                                       5	   Process owners are responsible for the business process components, related to internal controls, and any identified control gaps within their assigned portion of the
                                                            process.
                    Revenue Protection Rules
                    Report Number MS-MA-15-001
                                                                                                                                                                                Print                                                5
Highlights                                       Conclusion
                                                 The Postal Service does not have a comprehensive, strategic approach to revenue protection. Revenue protection is provided by
                                                 various groups whose missions and focuses are limited. For example, the Financial Testing and Compliance group tests internal
                                                 controls to ensure accuracy of financial statements, the Remediation group identifies and mitigates SOX weaknesses, and the
                                                 Postal Inspection Service Product and Global Security group identifies systemic risk from weak revenue protection controls.
                                                 This occurred because the Postal Service lacks a permanent group dedicated to coordinating and overseeing revenue protection
                                                 activities. The Postal Service has recognized the need for better coordination of revenue protection activities and in January 2014
                                                 reinstated the Revenue Assurance group6 under the chief financial officer to coordinate revenue protection efforts agency wide.
Table of Contents




                                                 However, the Revenue Assurance group consists of employees on temporary assignment who have other responsibilities in
                                                 addition to revenue assurance, and the group’s future is uncertain.

                                                 Best practices in analyzing and resolving revenue leakage issues have shown that agency-wide coordination is critical in reducing
                                                 unnecessary overlap of key revenue protection activities. Identifying a permanent group to oversee revenue protection activities
                                                 would mitigate gaps in and duplication of revenue protection activities, leverage Postal Service resources and increase the
                                                 effectiveness of revenue protection efforts.

                                                 The Postal Service also lacks critical information on the amount and sources of shortpaid postage. Prior U.S. Postal Service
                                                 Office of Inspector General (OIG) audit reports identified Postal Service internal controls were inadequate to identify shortpaid
                                                 and unpaid postage. The Postal Service continues to address revenue protection through technological initiatives, however,
                                                 revenue leakage will continue to occur until automated verification procedures replace current manual processes. Postal Service
Findings




                                                 officials explained that the process for identifying shortpaid is difficult and cost-prohibitive and that no single group is responsible
                                                 for this effort.

                                                 The first step in mitigating revenue leakage, including shortpaid postage, is to identify its source and magnitude. Best practices
                                                 for revenue protection begin with a framework to measure and identify leakage. Currently, the Postal Service uses data provided
                                                 by Statistical Programs from ODIS-RPW tests to project shortpaid postage of $432 million in FY 2013. However, the data are not
                                                 considered statistically valid for shortpaid estimates and are only used to gauge potential revenue leakage. Further, this estimate
Recommendations




                                                 does not include commercial mail. This lack of data impedes the Postal Service from developing effective revenue protection rules
                                                 and measuring program effectiveness. Applying the UPU’s 5 percent estimate to business and retail mail that was not verified for
                                                 sufficient postage through automation in FY 2013, we estimate that $1.2 billion of revenue was at risk due to revenue leakage,7
                                                 which represents 1.8 percent of total revenue.

                                                 Revenue Protection Coordination
                                                 The Postal Service does not have a comprehensive, strategic approach to revenue protection. Revenue protection is provided
                                                 by various groups, including Financial Testing and Compliance, Field Remediation, and the Postal Inspection Service, whose
                                                 missions and focuses are limited (see Table 1).
Appendices




                                                 6	    The Revenue Assurance group was created in 1997 and disbanded in 2003.
                                                 7	    Applying the 5 percent UPU figure to the Postal Service’s $67.3 billion revenue in FY 2013 equates to $3.4 billion of estimated shortpaid postage. However, based on
                                                      recent technological initiatives to automate verification and improve revenue assurance capabilities, we reduced this calculation to $1.2 billion.
                    Revenue Protection Rules
                    Report Number MS-MA-15-001
                                                                                                                                                                         Print                                                6
Highlights                                       Table 1. Postal Service Groups with Revenue Protection Responsibilities

                                                      Chief Financial Officer                        Chief Financial Officer
                                                           - Controller -                                 - Controller -                              Chief Postal Inspector
                                                      Corporate Accounting                            SOX Management


                                                         Field Remediation                                 Financial Testing                           Both test controls
                                                                                                           and Compliance                              related to business
Table of Contents




                                                        Focus: Remediate SOX
                                                                                                                                                       mail acceptance such
                                                                                                           Focus: Accuracy of                          as plant-verified drop
                                                          control weaknesses                              financial statements
                                                                                                                                                       shipments and
                                                                                                                                                       Business Reply Mail


                                                                                                                                                      Revenue, Product, and
                                                                                                        Revenue Assurance
                                                                                                                                                         Global Security
                                                       Conducted duplicative                           Focus: Quantify revenue                         Focus: Civil and criminal
                                                       revenue investigations                            at risk, protection of                         investigation, identify
                                                                                                       assets, and collection of                       systemic risk from weak
                                                                                                             revenue due.                            revenue protection controls.
Findings




                                                 Source: OIG summary of Postal Service data.


                                                 While these groups have different focuses, some responsibilities overlap or gaps exist.8 For example:

                                                 ■■ The Revenue, Product, and Global Security group and the Revenue Assurance group conducted duplicative revenue
                                                    investigations. Specifically, a PC Postage9 customer was submitting shortpaid parcels for shipment; however, neither
Recommendations




                                                    group was aware of the overlapping efforts during initial investigations. Both groups addressed this issue and implemented
                                                    procedures to avoid future overlap.

                                                 ■■ The Financial Testing and Compliance group and the Remediation group both test controls related to business mail
                                                    acceptance such as plant-verified drop shipments and Business Reply Mail.

                                                 Designating a permanent group to oversee revenue protection activities would mitigate gaps in communication and duplication of
                                                 revenue protection activities, leverage Postal Service resources and increase the effectiveness of revenue protection efforts. Until
                                                 the Postal Service established the Revenue Assurance group in January 2014, it had no single group responsible for revenue
                                                 leakage. Recognizing this gap, the Revenue Assurance group began developing a collaborative network with other groups by
                                                 hosting weekly meetings.
Appendices




                                                 8	    According to the U.S. Government Accountability Office (GAO), overlap occurs when multiple programs have similar goals or activities and may lead to inefficiencies
                                                      (2014 Annual Report: Additional Opportunities to Reduce Fragmentation, Overlap, and Duplication and Achieve Other Financial Benefits. GAO-14-343SP, April 2014).
                                                 9	    A hardware/software-based postage evidencing system offered by Postal Service-authorized providers (commercial vendors) for purchasing and printing Information-
                                                      Based Indicia postage from a personal computer, a printer, and Internet access. PC Postage product/service offerings are also available online through USPS.com.
                    Revenue Protection Rules
                    Report Number MS-MA-15-001
                                                                                                                                                                        Print                                                7
Highlights                                             In its first 8 months, the Revenue Assurance group recovered about               in revenue as it developed a collaborative
                                                       framework among all groups tasked with revenue protection responsibilities. As a result, the groups have avoided duplicate
                                                       investigations and improved coordination. In addition, Revenue Assurance personnel were instrumental in moving forward
                                                       Postal Service Delivering Results, Innovation, Value, and Efficiency (DRIVE)10 Initiative 46 to address the reduction and collection
                                                       of primarily retail revenue shortpaid parcels. However, the Revenue Assurance group consists of managers detailed from other
                                                       areas who continue to have responsibilities beyond revenue assurance, and the group is authorized only through the end of the
                                                       fiscal year and its continuation is uncertain.

                                                       Federal agencies use a variety of mechanisms to implement intra-agency collaborative efforts, such as appointing a coordinator
Table of Contents




                                                       to develop policy, implement programs, and improve oversight, information sharing, staffing, and training.11 Best practices suggest
                                                       that agency-wide coordination is critical in reducing unnecessary overlap and identifying potential revenue loss.
                           The Postal Service lacks
                             critical information on   Shortpaid Postage Identification
                                                       The Postal Service lacks critical information on the amount and sources of shortpaid12 postage for business mail. Postal Service
                           the amount and sources
                                                       officials explained that the process for identifying shortpaid is difficult and cost-prohibitive and that no single group is responsible
                           of shortpaid postage for    for this effort. In addition,

                                   business mail.                                                                                                However, prior audits have shown
                                                       personnel              did not always follow mail acceptance and verification procedures. The Postal Service designed 14


                                                       Seamless Acceptance to verify and validate proper mail make-up and postage collection on customer mailings. Revenue leakage
Findings




                                                       will continue to occur until automated verification procedures, such as seamless acceptance, replace current manual processes.

                                                       The first step in mitigating revenue leakage, such as shortpaid postage, is to identify its source and magnitude. Best practices for
                                                       revenue protection begin with a framework to measure and identify leakage.15 Assessing risk, including the probability and severity
                                                       of leakage, is essential for determining which resources to use and where to invest in mitigation. No single Postal Service group is
                                                       tasked with quantifying revenue leakage.
Recommendations




                                                       Although the Postal Service has sometimes estimated shortpaid postage, Postal Service managers stated that measuring this
                                                       form of revenue leakage is difficult and expressed concern about the cost effectiveness of estimating shortpaid postage. However,
                                                       other posts experienced the same challenge and have taken steps such as forming a cross-functional team to better identify actual
                                                       sources of leakage,16 establishing employee verification of postage statements at bulk mail entry units,17 and creating a full-time
                                                       team of revenue protection specialists at a main sorting center.18



                                                       10	 Management has developed multiple efforts as part of the DRIVE initiative they use to improve business strategy, development, and execution.
                                                       11	 Managing for Results Key Considerations for Implementing Interagency Collaborative Mechanisms. GAO-12-1022. September 2012.
                                                       12	 For the purpose of this report we use the term shortpaid as mail that is unpaid or has insufficient postage from whatever causes, such as counterfeit, bypass, and billing
                                                           and collection.
                                                       13	 The purpose of ODIS-RPW data is to prepare the RPW report, which is the official summary of Postal Service revenue, volume, and weight, not to project shortpaid
Appendices




                                                           postage.
                                                       14	
                                                                                                                 Mail Verification Procedures (Report Number MS-AR-10-005, dated August 30, 2010).
                                                       15	 UPU, Postal Revenue Protection Working Group, White Paper on Postal Revenue Protection. CC 2010.1-Doc 3b. January 2010.
                                                       16	 Correos de Costa Rica.
                                                       17	 Swiss Post.
                                                       18	 TTPost (Trinidad and Tobago’s post).
                    Revenue Protection Rules
                    Report Number MS-MA-15-001
                                                                                                                                                                                  Print                                                 8
Highlights                                       This gap impedes the Postal Service from developing effective revenue protection rules and measuring program effectiveness.
                                                 The UPU suggests about 5 to 10 percent of total revenue is lost as a result of fraud, poor mail acceptance, sampling and billing
                                                 processes, or unreliable revenue collection technology. We estimate that in FY 2013, $1.2 billion of revenue was at risk due to
                                                 revenue leakage.

                                                 Recouping revenue or avoiding revenue leakage through effective revenue protection may ward off rate increases and contribute
                                                 to a healthy, sustainable Postal Service.19 A process to project shortpaid postage — such as through risk models or statistical
                                                 sampling — could help identify the size of the revenue protection challenges the Postal Service faces. This, in turn, would help the
                                                 Postal Service develop effective revenue protection and assurance rules and programs targeted at the areas most vulnerable to
Table of Contents




                                                 revenue leakage.

                                                 The Postal Service has advised that its DRIVE 46 initiative addresses shortpaid postage through its goal of 100 percent reduction
                                                 of short paid parcels and 100 percent collection of short paid revenues where economically feasible. This initiative will identify
                                                 the root causes for shortpaid postage as well as define, develop, and implement solutions to accurately identify short paid and
                                                 unpaid parcels by 2015. The initiative will also develop and implement solutions for an automated collection process for shortpaid
                                                 revenues to be collected from customers by FY 2015. However, focused on parcels only, this initiative does not address shortpaid
                                                 postage from commercial mail.
Findings
Recommendations
Appendices




                                                 19	 UPU, Postal Revenue Protection Working Group, White Paper on Postal Revenue Protection. CC 2010.1-Doc 3b. January 2010.
                    Revenue Protection Rules
                    Report Number MS-MA-15-001
                                                                                                                                                               Print                  9
Highlights
                    Recommendations                   We recommend the vice president, Controller:

                                                      1.	 Develop a strategy to coordinate revenue protection efforts which will mitigate gaps in communication and duplication of
                                                          revenue protection activities, leverage Postal Service resources and increase the effectiveness of revenue protection efforts.

                       We recommend management        2.	 Explore cost effective methods for estimating shortpaid revenue for business mail.
                             develop a strategy to
                                                      Management’s Comments
                      coordinate revenue protection
Table of Contents




                                                      Management partially agreed with the findings and agreed with the recommendations.
                           efforts and explore cost
                                                      Management did not fully agree that there is no comprehensive strategic approach to revenue protection and believes they are
                             effective methods for    approaching revenue assurance strategically and are constantly looking at ways to improve their processes.

                       estimating shortpaid revenue
                                                      Regarding recommendation 1, management agreed and stated they have several pilot programs in place they will use to
                                for business mail.    determine the best way to coordinate revenue protection activities. The target implementation date is September 30, 2015.

                                                      Management stated the OIG calculated the report’s $1.2 billion of revenue at risk using a range of values obtained from a
                                                      2009 UPU study. The range was developed using a survey of international posts and was weighted heavily with developing
                                                      nations. Management acknowledged there are potential sources of revenue leakage and has been working to identify and
                                                      remediate these risks for years. In addition, the Postal Service believes it has processes in place that developing nations do not
Findings




                                                      have to combat the risks and it cannot find a direct correlation between the study’s determination that differences in practices and
                                                      terminology make it difficult to determine true revenue leakage. Management stated their studies indicate less revenue at risk.

                                                      Regarding recommendation 2, management agreed and stated they currently have DRIVE initiatives in progress (notably
                                                      Initiatives 43 and 46) that explore cost-effective ways to estimate shortpaid revenue for business mail. The target implementation
                                                      date is September 30, 2015.
Recommendations




                                                      See Appendix B for management’s comments, in their entirety.

                                                      Evaluation of Management’s Comments
                                                      The OIG considers management’s comments responsive to the recommendations and corrective actions should resolve the
                                                      issues identified in the report.

                                                      Regarding recommendation 1, we recognize the efforts the Postal Service has undertaken to coordinate revenue protection
                                                      activities, such as reinstating the Revenue Assurance group to coordinate revenue protection efforts agency-wide. However, this
                                                      group consists of employees on temporary assignment who have other responsibilities in addition to revenue assurance, and the
                                                      group’s future is uncertain. We continue to believe that a comprehensive strategy will mitigate gaps and duplicative efforts related
                                                      to revenue protection.
Appendices




                                                      Regarding recommendation 2, we note that DRIVE initiatives 43 and 46 primarily concern parcels. The first step in mitigating
                                                      revenue leakage, including shortpaid postage, is to identify its source and magnitude in all shapes of mail.

                    Revenue Protection Rules
                    Report Number MS-MA-15-001
                                                                                                                                                  Print                                    10
Highlights                                       Regarding the $1.2 billion of revenue at risk, in our analysis we excluded revenue at risk with the potential for automated
                                                 verification processes, such as seamless acceptance. Our analysis included the segment of mail with the highest risk,
                                                                                         . Moreover, we used the most conservative estimate of the value range in the UPU report.

                                                 The OIG considers all the recommendations significant, and therefore requires OIG concurrence before closure. Consequently,
                                                 the OIG requests written confirmation when corrective actions are completed. These recommendations should not be closed in the
                                                 Postal Service’s follow-up tracking system until the OIG provides written confirmation that the recommendations can be closed.
Table of Contents
Findings
Recommendations
Appendices




                    Revenue Protection Rules
                    Report Number MS-MA-15-001
                                                                                                                                          Print                                 11
Highlights
                    Appendices                          Appendices..................................................................................................12
                                                         Appendix A: Additional Information...........................................................13
                                                          Background ...........................................................................................13
                                                          Objective, Scope, and Methodology.......................................................14
                         Click on the appendix title
                                                          Prior Audit Coverage..............................................................................15
                          to the right to navigate to    Appendix B: Management’s Comments....................................................16
                              the section content.
Table of Contents
Findings
Recommendations
Appendices




                    Revenue Protection Rules
                    Report Number MS-MA-15-001
                                                                                                                                               Print                     12
Highlights          Appendix A:                  Background
                    Additional Information       With the establishment of the Revenue Assurance group in 1997, the Postal Service’s chief financial officer and executive
                                                 vice president began managing the revenue assurance process, which consists of identifying, adjudicating, and collecting
                                                 deficiencies. During 2000, the Postal Service moved the revenue protection responsibility from the Postal Inspection Service,
                                                 which had performed revenue audits until 1997, to revenue assurance officials. Postal Service management made this transfer
                                                 to allow the Postal Inspection Service to focus on criminal activities instead of audit-related work. The Postal Service disbanded
                                                 the Revenue Assurance group in 2003 due to the Shared Services Accounting project to streamline accounting processes and
                                                 reinstated it in 2014.
Table of Contents




                                                     Establishment of Revenue                        Revenue Assurance group
                                                     Assurance group                                 disbanded due to Shared
                                                                                                     Services Accounting project


                                                         97                      00                       03                                                                            14
                                                       19                      20                      20                                                                             20




                                                                             Revenue protection
                                                                             responsibility moved from
                                                                             Postal Inspection Service to                                             Revenue Assurance
Findings




                                                                             revenue assurance officials                                                group reinstated


                                                 The Postal Accountability and Enhancement Act of 2006 required the Postal Service to comply with Section 404 of SOX, which
                                                 includes an annual assessment of financial internal controls. Any ineffective or missing internal controls, called control gaps, affect
                                                 financial reporting. Control gaps could cause financial reports to be misleading. These ineffective or missing controls can result in
                                                 a material weakness20 or significant deficiency21 in an entity’s financial statement.
Recommendations




                                                 The Controller’s Office monitors the financial health of the Postal Service through the timely, accurate preparation of all
                                                 historical information. It also drives enforcement of, and ensures compliance with, key regulatory standards that affect financial
                                                 performance, such as SOX. Process owners are critical to Postal Service SOX compliance. Process owners own the business
                                                 process components, related to internal controls, and any identified control gaps within their assigned portion of the process.
                                                 They also maintain accountability over the business process and internal controls, including controls within related information
                                                 technology applications.

                                                 The SOX organization is composed of several functional groups, including:

                                                 ■■ The Postal Service Financial Testing and Compliance group performs the field testing and documentation of all key field
                                                    financial internal controls that fall under SOX compliance requirements, including business mail acceptance, to identify
Appendices




                                                    exceptions where the controls are not operating as designed.



                                                 20	 Error or misstatement in a financial report significant enough that when corrected, impacts the way financial standings appear.
                                                 21	 Control gap or aggregation of control gaps within a significant control that is great enough to possibly result in financial reporting misstatement.
                    Revenue Protection Rules
                    Report Number MS-MA-15-001
                                                                                                                                                                            Print                           13
Highlights                                       ■■ The Postal Service Field Remediation group performs the evaluation and analysis necessary to validate the remediation of
                                                    design or operating effectiveness gaps and monitor field level compliance with key financial controls. The group check business
                                                    mail acceptance controls based upon largest revenue and volume, thresholds, and past performance.

                                                 ■■ The Revenue Assurance group’s purpose is to improve the financial position of the Postal Service by protecting assets and
                                                    identifying and collecting all revenue due. The group may receive PC Postage or business mail acceptance leads via email and
                                                    the team assesses and pursues any related revenue deficiencies.

                                                 The Postal Inspection Service’s Revenue, Product, and Global Security group focuses primarily on criminal and civil investigations
Table of Contents




                                                 of those who intentionally deprive the Postal Service of revenue. It also identifies systemic risks from weak controls. The manager
                                                 of Revenue Fraud and Analysis generates leads and reports from data exceptions. When the group identifies discrepancies, it
                                                 notifies field inspectors who determine whether an investigation is warranted. The group investigates revenue protection issues
                                                 such as occurrences of PC Postage and business mail acceptance fraud schemes; calculates the loss to the Postal Service; and
                                                 pursues each offender with administrative, civil, or criminal action.

                                                 Objective, Scope, and Methodology
                                                 Our objective was to evaluate Postal Service rules related to revenue protection and to determine whether opportunities exist
                                                 for improvement.

                                                 To accomplish our objective we reviewed criteria, mission statements, policies and procedures, and other supporting documents
Findings




                                                 to evaluate Postal Service rules related to revenue protection and to determine whether opportunities exist for improvement.
                                                 We interviewed Postal Service managers responsible for revenue protection rules to understand the existing revenue protection
                                                 efforts. We reviewed UPU and GAO reports to identify best practices for revenue protection and coordination among groups. We
                                                 interviewed an industry expert to discuss revenue protection best practices.

                                                 We conducted this review from February through October 2014, in accordance with the Council of the Inspectors General on
                                                 Integrity and Efficiency, Quality Standards for Inspection and Evaluation. We discussed our observations and conclusions with
Recommendations




                                                 management on September 5, 2014, and included their comments where appropriate.

                                                 We assessed the reliability of computer-generated data by interviewing Postal Service officials. We determined that the data were
                                                 sufficiently reliable for the purposes of this report.
Appendices




                    Revenue Protection Rules
                    Report Number MS-MA-15-001
                                                                                                                                           Print                                  14
Highlights
                                                 Prior Audit Coverage
                                                                                                                                                              Monetary Impact
                                                 Report Title                                Report Number                   Final Report Date                  (in millions)

                                                 Strategic Approaches to Revenue              MS-AR-11-007                        9/30/2011                         None
                                                 Protection

                                                 Report Results: Postal Service officials collaborate and communicate regularly with internal and external stakeholders and a wide
Table of Contents




                                                 variety of program groups address revenue-protection issues and strategies. The Postal Service continues to address revenue
                                                 protection through technological initiatives as well as checklists, quick service guides, and training for clerks. However, revenue
                                                 leakage will continue to occur until automated verification procedures that use mail processing equipment and IMb technologies
                                                 replace current manual processes. Basic Service IMb and nonautomated mail will continue to require costly manual revenue
                                                 protection procedures until additional automated technologies are developed. We recommended management work with a broad
                                                 group of internal and external stakeholders to prepare for streamlining the entry of business mail, accelerate the timeline for
                                                 streamlined acceptance and verification, and seek to leverage technology to provide revenue protection for Basic Service intelligent
                                                 mail and nonautomated volumes. Management agreed with the recommendation and disagreed with the monetary impact based on
                                                 our methodology.
Findings
Recommendations
Appendices




                    Revenue Protection Rules
                    Report Number MS-MA-15-001
                                                                                                                                              Print                                 15
Highlights          Appendix B:
                    Management’s Comments
Table of Contents
Findings
Recommendations
Appendices




                    Revenue Protection Rules
                    Report Number MS-MA-15-001
                                                 Print   16
                     Appendices   Recommendations   Findings   Table of Contents   Highlights




 Revenue Protection Rules
 Report Number MS-MA-15-001
Print
17
Highlights
Table of Contents
Findings




                                                    Contact us via our Hotline and FOIA forms, follow us on social
                                                 networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                        or abuse. Stay informed.
Recommendations




                                                                       1735 North Lynn Street
                                                                      Arlington, VA 22209-2020
                                                                            (703) 248-2100
Appendices




                    Revenue Protection Rules
                    Report Number MS-MA-15-001
                                                                                                                          Print   18
